-   May 25,2005




Infrastructure and Environment
Defense Prisoner of WarIMissing
Personiiel Office Data Call Submissions
and Internal Control Processes for Base
Realignment and Closure 2005
(D-2005-038)




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
  Additional Information and Copies

  The Department of Defense Office of the Deputy Inspector General for Auditing,
  Readiness and Logistics Support prepared this report. If you have questions or
  would like to obtain additional copies of the report, contact Mr. Robert F.
  Prinzbach I1 at (703) 604-8907 (DSN 664-8907).

  Suggestions for Audits

  To suggest ideas for or to request audits, contact Audit Followup and Technical
  Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
BRAC                 Base Realignment and Closure
COBRA                Cost of Base Realignment Actions
DoD OIG              Department of Defense Office of Inspector General
DPMO                 Defense Prisoner of WarIMissing Personnel Office
DWO                  Defense-Wide Organization
ICP                  Internal Control Plan
JCSG                 Joint Cross Service Group
JPAT 7               Joint Process Action Team Criteria Number 7
NIA                  Not Applicable
OSD                  Office of the Secretary of Defense
OSD DA&M             OSD Director, Administration and Management
                             INSPECTOR GENERAL
                            DEPARTMENTOFDEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 222024704



                                                                          March 25,2005
MEMORANDUM FOR DIRECTOR, DEFENSE PRISONER OF WAIUMISSMG
               PERSONNEL OFFICE
SUBJECT: Report on Defense Prisoner of Warhlissing Personnel Office Data Call
         Submissions and Internal Control Processes for Base Realignment and
         Closure 2005 (Report No. D-2005-038)

        We are providing this report for your information and use. We performed the
audit in response to an Under Secretary of Defense for Acquisition, Technology, and
Logistics request. We considered management comments on a draft of this report when
preparing the final report. The complete text of the comments is in the Management
Comments section of the report.
        We appreciate the courtesies extended to the staff. Questions on the audit should
be directed to Mr. Robert Prinzbach 11 (703) 604-8907 (DSN 664-8907). See
Appendix B for the report distribution. The audit team members are listed inside the
back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                        \ Michael A. ~ose&
                                 Acting Assistant Inspector General for
                                   Readiness and Logistics Support
               Department of Defense Office of Inspector General
Report No. D-2005-038                                                 March 25,2005
   (Project No. D2004-DOOOLH-0090)

       Defense Prisoner of WarlMissing Personnel Office Data Call
             Submissions and Internal Control Processes for
                   Base Realignment and Closure 2005

                                  Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the base realignment and closure (BRAC) data calls, and Defense Prisoner of
War, Missing Personnel Office (DPMO) rnanagemcnt personnel should read this rwort.
The report d'lscusses the adequacy, completeniss, andhtegrity of the data providd by
DPMO to assist the Secretary of Defense in BRAC 2005 recommendations.
Background. BRAC 2005 is the formal process outlined in Public Law 101-5 10,
"Defense Base Closure and Realignment Act of 1990," as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued '"Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum OnePolicy,
Responsibilities, and Procedures," April 16,2003, which states that the Department of
Defense Office of Inspector General will review the accuracy of BRAC data and the
certification process.
The BRAC 2005 process was mandated for the United States and its tenitories and was
divided into the following data calls: capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, and Joint Process Action Team criteria number
7. The supplemental capacity, military value, Cost of Base Realignment Actions, and
Joint Process Action Team Criteria Number 7 data calls are collectively known as the
second data call. This report summarizes issues related to the BRAC 2005 process used
by DPMO as of February 2005. DPMO, located in Arlington, Virginia, provides
centralized management of prisoner of war and missing in action affairs within DoD. As
of February 2005, we had not conducted any revalidations of the capacity analysis or
second data calls, and DPMO had not received any JCSG scenario-specific data calls.
Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data and compliance with the applicable internal control plans. AAer
corrections were made as a result of our site visits, DPMO BRAC 2005 data were
generally supported, complete, and accurate, and the office uscd data collection processes
that generally complied with the applicable internal control plans. In addition, the
office's internal wntrol plan prope;ly incorporated the office of the Secretary of Defense
internal control plan. ow ever,
                             A    &



                                 neither internal control plan addressed separation of
duties, which resulted in an immaterial internal wntrol weakness. DPMO had one
material noncompliance with the internal control plan in that some of the documents used
to support responses to the capacity analysis and second data call questions were not
properly marked. When brought to their attention, DPMO personnel immediately
corrected the problem. DPMO also had six immaterial noncompliances, two of which
were corrected. The identified internal control weakness and noncompliances with the
internal control plans did not impact the reliability of the data that DPMO provided for
use in BRAC 2005 analysis. (See the Finding section of the report.)
Table of Contents
Executive Summary                                                          1



Background                                                                 1

Objectives                                                                 3

Finding
     DPMO BRAC 2005 Data Call Submissions and Internal Control Processes   4

Appendixes
     A. Scope and Methodology
         Management Control Review
         Prior Coverage
     B. Report Distribution

Management Comments
     Defense Prisoner of WarIMissing Personnel Office Comments
Background

        Base Realignment and Closure 2005. Public Law 101-5 10, "Defense Base
        Closure and Realignment Act of 1990," as amended, establishes the procedures
        under which the Secretary of Defense may realign or close military installations.
        The law authorizes the establishment of an independent Commission to review
        the Secretary of Defense recommendations for realigning and closing military
        installations. The Secretary of Defense established and chartered the
        Infrastructure Executive Council and the Infrastructure Steering Group as the base
        realignment and closure (BRAC) 2005 deliberative bodies responsible for
        leadership, direction, and guidance. The Secretary of Defense must submit
        BRAC recommendations to the independent Commission by May 16,2005.
        Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
        realigning base structure, is to examine and implement opportunities for greater
         ioint activity. 'The Office of the Secretary of Defense (OSD) established seven
        joint crossservice Groups (JCSGS)-c ducat ion and Training, Headquarters and
        Support Activities, Industrial, Intelligence, Medical, Supply and Storage, and
        Technical-to address issues that are common business-oriented support
        functions; examine functions in the context of facilities; and develop realignment
        and closure recommendations based on force structure plans of the Armed Forces
        and on selection criteria. To analyze the issues, each JCSG developed data call
        questions to obtain information about the functions that it reviewed.
        Defense-Wide Organizations. There are 1 I Defense-wide organizations
        (DWOS).' The OSD Director, Administration and Management (OSD DA&M) is
        the lead organization for the DWOs and facilitates the integration of DWO data
        into the BRAC 2005 process. Specifically, OSD DA&M is the DWO lead for
        collecting BRAC-related data and for developing and forwarding
        recommendations regarding the submission and approval of BRAC data. OSD
        DA&M is the primary data repository for all DWOs for all BRAC-related data,
        information collections, and requests, and is responsible for assembling and
        forwarding data to BRAC officials.
        Internal Control Plans. Before the BRAC data calls were released to the
        Services, Defense agencies, and DWOs, OSD prepared the OSD internal control
        plan (ICP), which was distributed under the Under Secretary of Defense for
        Acquisition, Technology, and Logistics' memorandum, "Transformation Through
        Base Realignment and Closure (BRAC 2005) Policy Memorandum OnePolicy,
        Responsibilities, and Procedures" (Policy Memorandum One), April 16,2003.
        The OSD ICP requires the JCSGs, Services, Defense agencies, and DWOs to
        prepare ICPs that incorporate and supplement the OSD ICP. To comply with that
        requirement, OSD DA&M prepared an overall DWO ICP, "Defense Wide
        Organizations Internal Contro12Planfor the 2005 Base Realignment and Closure
        Process," on January 15,2004. The overall DWO ICP and Appendixes L and M
        apply to the 11 DWOs. Each DWO prepared an organization-specific appendix to

'~mericanForces Information Service. Defense Human Resources Activilv. Defense Technoloev Securitv
  ,\drn~n~stration,
                 DoD Education ~ i t i " ~Defense
                                          t ~ , Prisoner of ~ a r / ~ i i s i Penonnel
                                                                              &        Office,-fomt staff,
 Office of 1-uonomic ,\diustmcnt. Dmartment of Defense Ofiiue of 1nsnccu)rGeneral. OSD. 'TRICARt
 Management Activity, and washingion tleadquarters Services.
2TheDWO ICP was updated on August 2,2004.
supplement the overall DWO ICP. The DPMO supplement is in Appendix K of
the DWO ICP.

BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
United States and its territories, was divided into the following data calls:
capacity analysis, supplemental capacity, military value, Cost of Base
Realignment Actions (COBRA), and Joint Process Action Team Criteria
Number 7 (JPAT 7). The supplemental capacity, military value, COBRA, and
JPAT 7 data calls are collectively known as the second data call. The Services,
Defense agencies, and DWOs used either automated data collection tools or a
manual process to collect data call responses. Specifically, the data calls were to
accomplish the following:
           The capacity analysis questions gathered data on infrastructure, current
           workload, surge requirements, and maximum capacity.
           The supplemental capacity questions clarified inconsistent data
           gathered during the initial capacity data call.
           The military value questions gathered data on mission requirements,
           land and facilities, mobilization and contingency, and cost and
           personnel.
           The COBRA questions gathered data to develop cost savings and
           return on investments of proposed realignment and closure actions.
           The JPAT 7 questions gathered data that the Services and JCSGs could
           use to assess the community's ability to support additional forces,
           missions, and personnel associated with individual scenarios.
Inspector General Responsibility. Policy Memorandum One requires the
Department of Defense Office of Inspector General (DoD OIG) to provide ICP
development and implementation advice, review the relevance and completeness
of BRAC data, and evaluate the data certification processes. In addition, Policy
Memorandum One requires DoD OIG personnel to provide assistance as needed
to the JCSGs and DoD Components.
Defense Prisoner of WarIMissing Personnel Oftice. The Defense Prisoner of
War/Missing Personnel Office (DPMO), located in Arlington, Virginia, provides
centralized management of prisoner of war and missing in action affairs within
DoD. DPMO responsibilities include providing DoD participation in the conduct
of negotiations with officials of foreign governments in efforts to account for
missing American Senice members; assembling, analyzing, and maintaining
databases of information on U.S. military and civilian personnel who are or were
prisoners of war or missing in action; providing representation to prisoner of war
or missing in action interagency forums; and providing a statement of intelligence
collection requirements to the Defense Intelligence Agency.
DPMO answered a total of 43 questions: 3 of 75 capacity data call questions and
40 of 120 second data call questions. Of the 43 questions, 21 were developed by
the Headquarters and Support Activities JCSG, the only JCSG to request data
from DPMO. DPMO used Microsoft Word to summarize collected data for the
capacity analysis data call and the Data Gathering Tool, a modified Microsoft
    Access tool developed for those not using an automated data collection tool, for
    the second data call.


Objectives

    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DPMO collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DPMO complied with
    the OSD and DWO ICPs. This report is one in a series of reports on data call
    submissions and internal control processes for BRAC 2005. See Appendix A for
    a discussion of the scope and methodology and prior coverage related to the audit
    objectives.
                 DPMO BRAC 2005 Data Call
                 Submissions and Internal Control
                 Processes
                 After corrections were made as a result of our site visits, DPMO provided
                 BRAC 2005 data that were generally supported, complete, and accurate,
                 and the data collection processes that DPMO used generally complied
                 with the ICPs. In addition, the DWO ICP properly incorporated the OSD
                 ICP. However, neither ICP addressed separation of duties, which resulted
                 in an immaterial internal control weakness. DPMO had one material
                 noncompliance with the ICPs in that some of the documents used to
                 support responses to the capacity and second data call questions were not
                 properly marked. When brought to their attention, DPMO personnel
                 immediately corrected the problem. DPMO also had six immaterial
                 noncompliances with the ICPs, two of which DPMO personnel corrected.
                 The identified internal control weakness and noncompliances with the
                 ICPs did not impact the reliability of the data that DPMO provided for use
                 in BRAC 2005 analysis.


DPMO BRAC 2005 Data Call Submissions

        Once corrections were made, the BRAC 2005 data that DPMO reported were
        generally supported, complete, and accurate. At DPMO, we evaluated the
        validity and integrity of the documentation used to support responses to data call
        questions. Specifically, we compared responses with supporting documentation
        and reviewed "Not Applicable" @/A) responses to determine whether the
        responses were reasonable.
        Capacity Analysis Data Call. DPMO provided reasonable responses to the
        capacity analysis data call questions and reasonable support for those responses.
        For the capacity analysis data call, OSD DA&M identified 75 of 752 total
        questions that may be applicable to DPMO, but instructed DPMO to review the
        remaining 677 questions to verify whether additional questions were applicable to
        DPMO. We evaluated the responses and support at DPMO for the three questions
        that DPMO answered with something other than N/A. DPMO had adequate
        support for the responses to all three questions, but had a math error in one
        certified resqonse. As the result of our site visit, DPMO processed a change
        adjudication correcting the math error in the certified response. We verified and
        concurred with the correction. In addition, we reviewed the 72 questions that
        DPMO concluded did not apply to them and agreed with the DPMO conclusion.
        Second Data Call. DPMO provided reasonable responses to the second data call
        questions and reasonable support for those responses. For the second data call,
        DPMO received 120 questions and answered a total of 40 question-7       targeted
        supplemental capacity questions, 11 targeted military value questions, 2 COBRA
        questions, and 20 JPAT 7 questions. We evaluated the responses and support for
        all 40 questions and concluded that DPMO had adequate and reasonable support

'A change adjudication is the process for changing a certified response in the BRAC data.



                                                    4
           for all responses except for question numbers 1907' and 1 9 0 8 ~because we were
           unable to validate the steps taken to generate those responses. In addition, we
           reviewed the 80 questions that DPMO concluded did not apply to them and
           agreed with the DPMO conclusion. As of February 2005, we had not conducted
           any revalidation of the second data call.


Internal Control Processes
           The data collection processes that DPMO used complied with the OSD and DWO
           ICPs. We reviewed the completeness of the DWO ICP and determined that the
           DWO ICP properly incorporated the OSD 1CP. In addition, we reviewed DPMO
           compliance with the DWO ICP to determine whether the DPMO data collection
           process complied with the DWO ICP. We reviewed whether DPMO personnel
           completed nondisclosure agreements and properly collected, marked,
           safeguarded, and maintained BRAC data. Specifically, we reviewed the
           completeness of BRAC documentation, ensured that BRAC information was
           secured in locked containers, and ensured that BRAC data were marked with
           "Deliberative Document-For Discussion Purposes Only-Do Not Release Under
           FOIA."
           OSD ICP. OSD defined the internal control process for BRAC 2005 in the OSD
           ICP, which provides broad internal control mechanisms designed to ensure the
           accuracy, completeness, and integrity of information used to support BRAC
           actions. The OSD ICP describes broad lines of authority and responsibilities;
           requires that BRAC analysis and recommendations be based on accurate,
           complete, and certified data; and requires that the process be properly documented
           and auditable. The OSD ICP requires any DoD Component participating in
           BRAC to develop and implement an ICP to ensure the accuracy of data collection
           and analysis.
           DWO ICP. OSD DA&M prepared the DWO ICP, which refines the
           requirements established in the OSD ICP and provides guidance on the
           responsibilities of the DWOs. The DWO ICP provides a consistent set of
           management controls to ensure the accuracy, completeness, and integrity of
           BRAC data and to limit the possibility of premature disclosure of BRAC
           information. OSD DA&M developed documentation requirements, review
           procedures, and certification procedures that apply to all DWOs and included
           those procedures in Appendix M of the DWO ICP. The DPMO-specific internal
           controls are included as Appendix K of the DWO ICP. The DPMO appendix
           contains specific information on where BRAC documents will be stored and on
           the responsibilities of DPMO personnel.
           Completeness of ICPs. The DWO ICP properly incorporated the OSD ICP. The
           DWO ICP established DPMO responsibilities and outlined management control
           mechanisms to provide accountability and to safeguard DPMO BRAC
           information. In addition, the DWO ICP identified required documentation to

1
    Ihe question asked for the number of meetings bctwen an organ~~ation's   scnior offic~als.including Flag
    off~cen,and senior officials from another organlzalion located in thc Washington, U C . . arca.
he question asked for the number of meetings between an organization's senior officials, including Flag
    officers, and members of Congress or their staffs.
        justify changes made to data and information afier it had been certified and sent to
        the OSD BRAC Office. Both ICPs included directions on completing
        nondisclosure agreements and on collecting, marking, safeguarding, and
        maintaining BRAC data.
        However, neither ICP addressed separation of duties, which resulted in an internal
        control weakness. The ICPs did not requiree!t assignment of different personnel
        as the responder, reviewer, and trusted agent. DPMO had one person certify as
        the reviewer and trusted agent for the capacity analysis data call and as the
        responder, reviewer, and trusted agent for the second data call. Because DPMO's
        responses and support were reasonable, we considered this internal control
        weakness to be immaterial.
        Compliance With ICPs. DPMO did not fully comply with the ICPs; however,
        the identified noncompliances did not impact the reliability of the DPMO data for
        use in BRAC 2005 analysis. DPMO had one material noncompliance with the
        OSD and DWO ICPs in that DPMO had not properly
                                                   -    .     marked some of the
        BRAC-relatcd documents used to support answers to capacity analysis and second
        data call questions. DPMO resolved the noncompliance by properly -    marking- the
        documenti immediately upon being notified of the noncompliance.
        DPMO had six immaterial noncompliances with the DWO ICP. Specifically,
        DPMO did not sign and date the question pages for the second data call and did
        not date the certification pages for either data call. DPMO resolved the
        noncompliances for the second data call by signing and dating the question pages
        and the certification page. In addition, DPMO did not maintain the following
        logs.
                     A BRAC data log was not maintained because only the Senior
                     Director for Support and one other person were working with the data.
                     When they were done summarizing the BRAC data, a contractor made
                     the BRAC compact disc.
                     A BRAC copy log was not maintained because the Senior Director for
                     Support had not provided copies of BRAC data to anyone other than
                     DoD OIG personnel and the OSD DA&M and he had receipts for
                     release of that data.
                     A log that records each time a trusted agent works with the master
                     record was not maintained because the Senior Director for Support
                     was the only DPMO staff member with access to the master record.
        We did not reauest DPMO to correct these three noncom~liances.Because
               ~   -~~~

        DPMO's responses and support were reasonable, and bcc'ausc DPMO stored all
        BRAC data in a sccurc container (a safc) accessible only by the trusted agent, we
        considered the noncompliances to be immaterial.



'The DPMO msted agent was responsible for performing administratibe functions associated w ~ t h
  supponlng, organizing, and managing the questionna~redam-gathenng process for DPMO, ensuring that
  all quesuons were awigned, answered, reviewed, and certified, and organ~zingand mainmning the master
  record.


                                                  6
Conclusion
    Once corrections were made, DPMO reported BRAC 2005 data that were
    generally supported, complete, and accurate, and the data collection processes that
    DPMO used generally complied with the ICPs. However, DPMO had one
    immaterial internal wntrol weakness, one material noncompliance with the ICPs,
    and six immaterial noncompliances with the ICPs. We discussed the identified
    internal control weakness and ICP nonwmpliances with DPMO management.
    DPMO management concurred with our findings and corrected the
    nonwmpliances that we asked to be corrected. We believe that the internal
    control weakness and ICP noncompliances did not adversely impact the reliability
    of the DPMO BRAC 2005 data.
Appendix A. Scope and Methodology
         We evaluated the validity, integrity, and supporting documentation of DPMO
         BRAC 2005 data. The evaluation included comparing responses with supporting
         documentation and reviewing NIA responses to determine whether the responses
         were reasonable. Questions had either an answer or an NIA response; an NIA
         response was for questions determined not to apply to DPMO.
         We evaluated the data collection process to determine whether DPMO followed
         the OSD ICP guidance to develop an ICP, maintained adequate documentation to
         support the data collection process, and established adequate internal controls to
         ensure that data call responses were complete and accurate. We ensured that the
         DWO ICP incorporated the requirements of the OSD ICP and reviewed DPMO
         compliance with the ICPs. We evaluated DPMO data collection procedures, to
         include reviewing the completion of nondisclosure agreements and the collection,
         marking, safeguarding, and maintenance of BRAC data. In addition, we
         interviewed the Senior Director for Support and the administrative management
         specialist who helped prepare the capacity analysis responses. The Senior
         Director for Support reviewed and certified the official responses from DPMO to
         the capacity analysis questions. For the second data call, the Senior Director for
         Support prepared and reviewed the official DPMO responses and the Chief of
         Staff certified them. We reviewed documentation dated kom July 1993 through
         August 2004.
         As of February 2005, we had not conducted any revalidations of the capacity
         analysis or second data calls, and DPMO had not received any JCSG
         scenario-specific data calls.
         Capacity Analysis Data Call. OSD DA&M identified 75 of 752 total questions
         that may be applicable to DPMO but instructed DPMO to review the remaining
         677 questions to verify whether additional questions were applicable to DPMO.
         DPMO determined that only three questions applied to DPMO and should be
         answered with something other than NIA. We reviewed the 75 questions and also
         concluded that only 3 applied to DPMO. We reviewed the responses to question
         numbers 462,466, and 471. Question numbers 3 11 , 313 through 329,347
         through 388,393,446,447,448,461,464,468,478,480,481,482, and 582 were
         appropriately answered as NIA. Per DoD OIG guidance of March 9,2004, we did
         not review the applicability of the other 677 questions.
         Second Data Call. OSD DA&M provided DPMO a total of 120 questions for the
         second data call. DPMO received 83 targeted military value questions from the
         Headquarters and Support Activities JCSG, 9 targeted supplemental capacjty
         questions from the Headq2uartersand Support Activities JCSG, 8 COBRA
         questions, and 20 JPAT 7 questions. DPMO answered 40 of the questions with
         something other than NIA. We reviewed the answers for all 40 questions. We
         also concluded that NIA was the appropriate response for the other 80 questions.
         The following table lists the question responses that we reviewed.


'COBRA questions were to be answered by stand-alone or host activities, which included leased facilities.
2~~~~   7 questions were to be answered by stand-alone or host activities, which included leased facilities.
                     Second Data Call Responses Reviewed

                                        Question Number
 Type of Question             Answered                   Not Applicable
JCSG Military       1905,1907 through 1911,     1 1900 through 1904,1906,
Value               1913 through 1917             1912, and 1918 through 1982 1
Supplemental        4079,4080,4099, and 4100      4081 and 4096
Capacity            through 4 103
COBRA               1501 and1505                  1500,1502,1503.1504.




The JPAT 7 replaced questions 1418 and 1419 with questions 1420 and 1421
because organizations were encountering problems responding to questions 1418
and 1419. We reviewed the answers for all 40 questions as of February 2005.
Subsequent changes or requests from JPAT 7 were not reviewed.
We issued two site memorandums to summarize the results of our review of the
3 capacity analysis data call questions and the 40 second data call questions.
However, for the second data call, we did not verify the accuracy of supporting
documentation for Headquarters and Support Activities JCSG military value
question numbers 1907 and 1908 because the DoD OIG determined that the
questions required supporting documentation that could not be verified. As of
February 2005, DPMO received no scenario data calls.
We performed this audit from March 2004 through February 2005 in accordance
with general accepted government auditing standards.
Reliability of Computer-Processed Data. We did not test the accuracy of the
computer-processed data used to support an answer to a data call question because
of time constraints. Potential inaccuracies in the data could impact the results.
We did not review the data collection tools used (Microsoft Word and the Data
Gathering Tool). However, the BRAC data were certified as accurate and
complete to the best of the certifier's knowledge and belief.
Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Management of Federal Property and DoD Support
Infrastructure Management high-risk areas.
Management Control Review
    We evaluated the DPMO management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
    that DPMO used to develop, submit, and document its data call responses. In
    addition, we reviewed the controls implemented to safeguard against the
    disclosure of DPMO BRAC data before responses were forwarded to the OSD
    BRAC Office. Management controls were adequate as they applied to the audit
    objective. (See the finding section for additional details.) We did not review the
    DPMO management control program because its provisions were not deemed
    applicable to the one-time data collection process.


Prior Coverage
    During the last 5 years, the DoD OIG has issued two site memorandums
    discussing the DPMO BRAC 2005 data call submissions and internal control
    processes.
    Site Memorandums
    DoD IG Memorandum, "Audit on the Second Data Call Submission from the
    Defense Prisoner of WarIMissing Personnel Office for Base Realignment and
    Closure 2005," September 7,2004
    DoD IG Memorandum, "Audit on the Capacity Analysis Data Call Submission
    for Base Realignment and CIosure 2005," April 9,2004
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)

Other Defense Organizations
Director, Defense Prisoner of WarMissing Personnel Office

Non-Defense Federal Organization
Government Accountability office*




*only Government Accountability Office personnel involved in the BRAC process are to receive the
report.
Defense Prisoner of WarIMissing Personnel Office Comments




                DEFENSE PRISONER OF WARIHIS61NG PE-NEL                                  OFFICE
                                         24W OCFMSE P B N T A W N
                                        W*SFIINOTON, DC 2CUOllll00




        C I I : L ( o K , ~ h l l l ' ~tOK
                                        l  INSI'II'I'OR (iCTFKAl . PR(K1WAW n I R C ~ ' r o K .
                                           KI.,\l)lhl:SS 4ND L(l(ilS'TICS I I I P P O K I
                                           ,\I I N U K . UO131 K I b . PIUN/LIACII II

        hlJHJ1.l'l Kelwn 131, lkfmenr t'nwwr 01 W.v'Mupimg I'cmnwl I M k e l h m (':taI
                   Suhrnisltan a d lnlcrnrl ('onl~~ol
                                                   Pnr.rx*s Lu lhu Realtgnnnmt lvvl
                   ('I#,wn. ?MI5 (Pn>jrrlNo U2OIMl I-DCWOj




                                                               /John A l s m Dmun
                                                                 Senior 1)iwlor fa Svppolr
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to this report
are listed below.
Robert F. Prinzbach I1
Catherine M. Schneiter
Elizabeth L.N. Shifflett
